No. 20-1460
IN THE SUPREME COURT OF THE UNITED STATES
------------------ROLANDO CRUZ, Jr., Petitioner,
v.
UNITED STATES, Respondent.
------------------AGREED MOTION TO DISMISS
Pursuant to Rule 46.1 of the Rules of this Court, petitioner Rolando Cruz, Jr.,
and the United States, by counsel below-named, respectfully request that the abovecaptioned case, filed pro se on April 14, 2021, be dismissed, and that any costs
incurred be assessed against the party incurring such costs. This agreement is made
without prejudice to the Court’s consideration, in the ordinary course, of the counseled Joint Petition of petitioner Cruz – together with petitioners Marc Hernandez
and Roscoe Villega – challenging the same judgment, filed on April 23, 2021, which as
of this date has not yet been docketed. A true and correct copy of an email sent to
counsel by petitioner Cruz via the Federal Bureau of Prisons’ secure CorrLinks
program, consenting to this dismissal, is attached as Exhibit A (redacted to remove
privileged communications).
Respectfully submitted,
Dated: April 29, 2021

PETER GOLDBERGER
50 Rittenhouse Place
Ardmore, PA 19003
(610) 649-8200
peter.goldberger@verizon.net
Counsel for Petitioner

Agreed to, 4/26/21, by:
ERIC J. FEIGIN
Deputy Solicitor General
United States Department of Justice
Washington, DC 20530
(202) 514-2201
Eric.Feigin@usdoj.gov
Counsel for Respondent

